Report No. IE-2010-001          January 15, 2010




     Evaluation of DOD Contracts Regarding

        Combating Trafficking in Persons
               DEPARTMENT OF DE FENSE
              OFFICE OF INSPECTOR G ENERAL




                     MISSION STATEMENT




      Promote integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support
       the Department's mission and serve the public interest.




                                                                      D E PA R T M E N T O F D E F E N S E
                                                                                                             To report fraud, waste, mismanagement, and abuse of authority.


                                                                      hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                             Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
This Page Intentionally Left Blank
         Evaluation of DoD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                         January 15, 2010


           Results in Brief: Evaluation of DOD Contracts
           Regarding Combating Trafficking in Persons

What We Did
Section 232 of the “William Wilberforce Trafficking Victims Protection Reauthorization Act of
2008,” Public Law 110-457 (December 23, 2008), requires the Inspectors General of the Department
of Defense, the Department of State, and the United States Agency for International Development to
investigate a sample of contracts where there is a heightened risk that a contractor may engage in acts
related to trafficking in persons.
In response, we reviewed a sample of Department of Defense contracts for compliance with the
“Trafficking Victims Protection Act of 2000,” title 22, United States Code, chapter 78, (as amended).
We reviewed reports covering areas of heightened risk for trafficking in persons, selecting the
Republic of Korea, Japan, and the Territory of Guam for our first evaluation. We conducted site
visits at United States military installations in these locations. We also reviewed and summarized
DOD criminal investigative data collection efforts related to combating trafficking in persons.

What We Found
As a result of our site visits and interviews, we found:
  •   DOD and other Federal law enforcement criminal activity databases had no effective
      mechanism to track trafficking in persons incidents, but a Federal law enforcement advisory
      policy group is considering this issue.
  •   Half of the contracts sampled either did not contain the Combating Trafficking in Persons
      clause, or were modified to include the clause just prior to our site visits.
  •   The Standard Procurement System contract building software allowed for deletion of the
      mandatory Combating Trafficking in Persons Clause.
  •   Contracting officers lacked an effective process for obtaining information concerning
      trafficking in persons violations.

What We Recommend
  •   The Standard Procurement System should be modified so that the mandatory Combating
      Trafficking in Persons clause cannot be removed during solicitation or contract document build.
  •   The DOD law enforcement community should proactively share trafficking in persons
      convictions information with contracting offices.
  •   Relevant contract quality assurance plans should include combating trafficking in persons
      considerations.

Client Comments and Our Response
The Office of the Under Secretary of Defense for Personnel and Readiness agreed with our
recommendation, and stated they planned to modify Department of Defense policy to comply with
the recommendation after Federal law enforcement organizations agree upon an overarching
identification scheme for TIP-related offences. The Director, Defense Procurement, Acquisition
Policy and Strategic Sourcing, of the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics agreed with our recommendations, and provided plans for their
implementation.

                                                     i
         Evaluation of DoD Contracts Regarding Combating Trafficking in Persons    Report No. IE-2010-001
                                                                                          January 15, 2010

Recommendations Table
Client                                  Recommendations                    No Additional Comments
                                        Requiring Comment                  Required
Director, Defense Procurement,                                             1, 3
Acquisition Policy and Strategic
Sourcing, of the Office of the
Under Secretary of Defense for
Acquisition, Technology, and
Logistics
Director, Law Enforcement                                                  2
Policy and Support, of the Office
of the Under Secretary of
Defense for Personnel and
Readiness


Total Recommendations in this Report: 3




                                                      ii
Table of Contents
Results in Brief: Evaluation of DOD Contracts Regarding Combating
Trafficking in Persons ......................................................................................... i
   What We Did ...................................................................................................... i
   What We Found ................................................................................................. i
   What We Recommend ....................................................................................... i
   Client Comments and Our Response................................................................. i
   Recommendations Table .................................................................................. ii
Introduction .........................................................................................................1
   Background .......................................................................................................1
   Objective ...........................................................................................................3
   Scope ................................................................................................................3
   Methodology......................................................................................................3
Observations .......................................................................................................5
   Trafficking in Persons Criminal Investigations Reporting ..................................5
   Combating Trafficking in Persons Clause Inclusion in Contracts ......................7
   Notifying Contracting Officers of Trafficking in Persons Incidents ...................11
Appendix A. Methodology and Acronyms .....................................................13
   Methodology....................................................................................................13
   Use of Computer-Processed Data...................................................................14
   Acronyms ........................................................................................................14
Appendix B. Client Comments........................................................................15
   Office of the Director, Defense Procurement and Acquisition Policy, of the
   Office of the Under Secretary of Defense for Acquisition, Technology, and
   Logistics ..........................................................................................................15
   Office of the Under Secretary of Defense for Personnel and Readiness.........17
This Page Intentionally Left Blank
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons        Report No. IE-2010-001
                                                                                     January 15, 2010



Introduction
Over the past decade, actions of U.S. Forces personnel and contractors working for DOD
overseas involving sexual slavery, human trafficking, and debt bondage attracted media
attention and motivated Congressional action. Prior to 2000, instances of sexual slavery,
sex with minors, and human trafficking involving U.S. contractors in Bosnia and
Herzegovina led to administrative and criminal investigations. In 2002, a local television
news program aired a report that women trafficked from the Philippines, Russia, and
Eastern Europe were forced into prostitution in bars in South Korea frequented by
U.S. military personnel. In 2004, reports chronicled allegations of forced labor and debt
bondage against U.S. contractors in Iraq, leading to foreign embassy involvement. These
incidents were contrary to U.S. Government policy regarding official conduct 1 and
reflected poorly on DOD.


Background
In 2000, Congress passed, and the President signed into law, two statutes responding in
part to identified U.S. Forces and contractor misconduct in Bosnia and Herzegovina:
Public Law 106-386, which included the “Victims of Trafficking and Violence Protection
Act of 2000,” on October 28, and Public Law 106-523, “Military Extraterritorial
Jurisdiction Act of 2000,” on November 22.

Congressional intent regarding the first statute was “to combat trafficking in persons
[CTIP], a contemporary manifestation of slavery whose victims are predominantly
women and children, to ensure just and effective punishment of traffickers, and to protect
their victims.” The second statute established “Federal jurisdiction over offenses
committed outside the United States by persons employed by or accompanying the
Armed Forces, or by members of the Armed Forces who are released or separated from
active duty prior to being identified and prosecuted for the commission of such offenses.”
Congress specifically extended this extraterritorial jurisdiction over trafficking in persons
(TIP) offenses committed by persons employed by or accompanying the Federal
Government outside the United States in Public Law 109-164, “Trafficking Victims
Protection Reauthorization Act Of 2005,” January 10, 2006.

Additional reauthorizations expanded the scope and applicability of the original statute.
Public Law 108-193, the “Trafficking Victims Protection Reauthorization Act of 2003,”
December 19, 2003, gave the Government the added authority to terminate grants,
contracts, or cooperative agreements for TIP-related violations.



1
 Executive Order 13257 “President’s Interagency Task Force To Monitor and Combat Trafficking in
Persons,” of February 13, 2002, and Executive Order 13333, “Amending Executive Order 13257 To
Implement the Trafficking Victims Protection Reauthorization Act of 2003,” March 18, 2004.


                                                 1
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons               Report No. IE-2010-001
                                                                                            January 15, 2010

           The President shall ensure that any grant, contract, or cooperative agreement
           provided or entered into by a Federal department or agency under which funds are to
           be provided to a private entity, in whole or in part, shall include a condition that
           authorizes the department or agency to terminate the grant, contract, or cooperative
           agreement, without penalty, if the grantee or any subgrantee, or the contractor or any
           subcontractor (i) engages in severe forms of trafficking in persons or has procured a
           commercial sex act during the period of time that the grant, contract, or cooperative
           agreement is in effect, or (ii) uses forced labor in the performance of the grant,
           contract, or cooperative agreement. 2

In 2006 the Civilian Agency Acquisition Council and the Defense Acquisition Council
agreed on an interim rule implementing the above stated requirement, adding Federal
Acquisition Regulation Subpart 22.17, “Combating Trafficking in Persons.” The
regulation states that the “subpart applies to all acquisitions,” and paragraph 22.1705,
“Contract clause” states:

           (a) Insert the clause at 52.222-50, Combating Trafficking in Persons, in all
           solicitations and contracts.
           (b) Use the basic clause with its Alternate I when the contract will be performed
           outside the United States (as defined at 25.003) and the contracting officer has been
           notified of specific U.S. directives or notices regarding combating trafficking in
           persons (such as general orders or military listings of “off-limits” local
           establishments) that apply to contractor employees at the contract place of
           performance.

Our mandate for this evaluation is contained in Public Law 110-457, “William
Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” December 23,
2008. Subtitle D, section 232, requires the DOD IG, for FYs 2010 through 2012, to:

           “…investigate a sample of … contracts, or subcontracts at any tier, under which there
           is a heightened risk that a contractor may engage, knowingly or unknowingly, in acts
           related to trafficking in persons, such as:
                (A) confiscation of an employee’s passport;
                (B) restriction on an employee’s mobility;
                (C) abrupt or evasive repatriation of an employee;
                (D) deception of an employee regarding the work destination; or
                (E) acts otherwise described in section 106(g) of the Trafficking Victims
                Protection Act of 2000 (22 U.S.C. 7104).”

Section 232 of Public Law 110-457 also requires a report to Congress no later than
January 15 of each year:

           (A) summarizing the findings of the investigations conducted in the previous year,
           including any findings regarding trafficking in persons or any improvements needed
           to prevent trafficking in persons; and



2
    The language is codified in section 7104g, title 22, United States Code (22 U.S.C. §7104g [2009]).


                                                       2
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons      Report No. IE-2010-001
                                                                                   January 15, 2010

        (B) in the case of any contractor or subcontractor with regard to which the Inspector
        General has found substantial evidence of trafficking in persons, report as to—
            (i) whether or not the case has been referred for prosecution; and
            (ii) whether or not the case has been treated in accordance with section 106(g) of
            the Trafficking Victims Protection Act of 2000 (22 U.S.C. 7104) (relating to
            termination of certain grants, contracts and cooperative agreements).

This report is the first in a series, and it discusses results of our review of contracts
awarded in FY 2009.


Objective
We announced this project on August 5, 2009. Our objective was to review a sample of
DOD contracts for compliance with the “Trafficking Victims Protection Act of 2000,”
22 U.S.C. 78 (2009), as amended, and to summarize DOD CTIP investigative efforts.


Scope
We examined a sample of contracts solicited, awarded, and administered by Army, Navy,
Marine Corps, and Air Force commands in the U.S. Pacific Command area of
responsibility, specifically the Republic of Korea, Japan, and U.S. Territory of Guam.
Subsequent reports will cover additional Combatant Command geographical areas of
responsibility. Our contract sample consisted of construction and service contracts, each
with a total value of $5 million or more and awarded in FY 2009. We believe that this
sample met the “heightened risk” standard stated in the statute. All contracts reviewed
were generated using the Standard Procurement System / Procurement Desktop Defense
(SPS / PD2) software application.


Methodology
The team began field work in August 2009. Prior to performing site visits, we
coordinated with the Inspectors General from the Department of State and the
U.S. Agency for International Development. On August 20, 2009, we consulted with the
Director of the Office to Monitor and Combat Trafficking in Persons of the Department
of State. We also contacted selected DOD administrative and criminal investigation
organizations to obtain case results data.

We conducted site visits in October 2009. During the site visits, we reviewed a total of
99 contracts. We also interviewed military commanders, contracting officers, contracting
specialists, and representatives of contractors involved with the contracts in our sample.

For a more detailed discussion of the project methodology, see Appendix A.



                                                 3
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010




                              This Page Intentionally Left Blank




                                                 4
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons          Report No. IE-2010-001
                                                                                       January 15, 2010



Observations
Trafficking in Persons Criminal Investigations Reporting
Section 108 of Public Law 110-457 amended 22 U.S.C. §7109a “Trafficking Victims
Protection,” to require an integrated database that provides “an effective mechanism for
quantifying the number of victims of trafficking on a national, regional, and international
basis….” The database shall combine “all applicable data collected by each Federal
department and agency represented on the Interagency Task Force to Monitor and
Combat Trafficking….” 3 We examined a summary of the DOD case data that
contributed to the national database.

We requested reports from four Defense criminal investigative organizations 4
summarizing criminal investigative activity for FY 2009 related to TIP and involving a
DOD contractor or sub-contractor. Data provided included one report of preliminary
investigative activity of a contractor in Iraq. According to the report, the contractor took
corrective action. Investigative findings were briefed to representatives of the Civil
Rights Division of the U.S. Department of Justice, who determined facts and
circumstances did not warrant further action.

During analysis, we observed that data concerning TIP-related criminal investigative
activity received from various sources was inconsistent. The criminal investigative
organizations we queried reported that “Trafficking in Persons” was not a searchable
category in their respective databases. Database managers had to query related offenses
(pandering, kidnapping, etc.) and make a case-by-case determination for a TIP
connection.

Federal law enforcement national databases also had no mechanism to specifically
identify TIP-related offenses. 5 The problem requires an interagency solution, and the
Federal Bureau of Investigation’s Criminal Justice Information Services Division created
an Advisory Policy Board that has the issue as an action item. DOD is represented on
this Advisory Policy Board. Recommendations for changes to DOD systems should
await an over-arching Federal law enforcement solution to ensure “uniformity of such
data collection and standards and systems related to such collection,” as required by
Public Law 110-457.




3
  Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,”
section 108. “Research on Domestic and International Trafficking in Persons.”
4
  The Defense criminal investigative organizations queried were the Defense Criminal Investigative
Service, the U.S. Army Criminal Investigation Command, the Naval Criminal Investigative Service, and
the US Air Force Office of Special Investigations.
5
  The Federal Bureau of Investigation maintained the Uniformed Crime Reporting System and National
Incident-Based Reporting System; DOD used the Defense Incident-Based Reporting System.


                                                   5
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010




                              This Page Intentionally Left Blank




                                                 6
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010



Combating Trafficking in Persons Clause Inclusion in
Contracts
The Federal Acquisition Regulation requires that all Federal solicitations and contracts
contain clause 52.222-50, “Combating Trafficking in Persons,” or 52.222-50 with the
Alternate I modification for contracts with performance outside the U.S. The team
reviewed 99 Army, Navy, Marine Corps, and Air Force service or construction contracts
in the Republic of Korea, Japan, and the Territory of Guam that were awarded in
FY 2009. As shown in Figure 1, we found that 92 (93 percent) of the contracts contained
the mandatory clause, and the clause was missing from 7 (7 percent) of the contracts.




             Figure 1. Presence of the CTIP Clause in Sampled Contracts

Contracting organizations included the appropriate CTIP clause at the award date in 50
(51 percent) of the contracts reviewed. However, contracting officers modified 42 (42
percent) of the contracts to add the clause during the two weeks prior to our visit. In
summary, half of the contracts reviewed did not meet the requirement when awarded
because they either did not contain the CTIP clause or had been recently modified prior
to our evaluation.

Contracting officers interviewed stated that they all used the SPS / PD2 software
application to accomplish contract actions. While SPS / PD2 was not the only system
used by DOD contracting officers to write contracts, all the contracts in our sample were
built using SPS / PD2.

Officials from the Standard Procurement System Joint Program Office (of the Business
Transformation Agency, Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics) stated that SPS / PD2 was deployed to over 20,000 DOD
users at approximately 800 sites around the world. Representatives from the contractor
responsible for maintaining SPS / PD2 performed a software demonstration of contract
template modification and contract development.

Officials from the Standard Procurement System Joint Program Office explained that
they are notified of changes to the Federal Acquisition Regulation (such as addition of a
mandatory clause – e.g., CTIP) from the Defense Procurement Acquisition Policy office.
They required the SPS / PD2 software development contractor to modify the program,


                                                 7
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010

test the change, and post the approved update to a web-based server. Contracting office-
designated system administrators and other authorized individuals in the field were
notified of changes and downloaded and installed updates to their systems. System
administrators also developed “deviations” to the SPS / PD2 template which were applied
to customize solicitations and contracts to meet Service-wide, regional, and local
requirements.

In a typical SPS / PD2 solicitation or contract build, contracting personnel access a series
of menus to select clauses and choose those most appropriate for the acquisition. It was
possible to deselect clauses at any time during the build in SPS / PD2 or after it was
converted into a text document.

Contracting officers at several sites stated that they built contracts through a series of
drop down menus but did not take out mandatory clauses. However, half of the 99
contracts we sampled did not include the CTIP clause when drafted using the SPS / PD2
system. We identified three possibilities:

    •   System administrators and other authorized individuals did not perform timely
        system updates. This would result in contracting officers using an out-of-date
        template to build contracts. Contracting offices need to ensure timely updates.
    •   System administrator “deviations” blocked parts of the approved Federal
        Acquisition Regulation clause updates.
    •   Contracting personnel in the field deselected the clause during the template
        build or deleted the clause from the converted text document.

Noncompliance with the requirement to include the CTIP clause in contracts has two
primary effects. First, contractors remain unaware of the Government’s “zero tolerance”
policy and self-reporting requirements regarding CTIP. Several contractors interviewed
during site visit sensing sessions were unfamiliar with the CTIP clause requirements,
including potential penalties. The lack of awareness was unsurprising, as half of the
contracts did not contain the clause or it had been recently added by modification.
Second, while the CTIP policy and provisions are law, it is unlikely that contracting
officers would be able to enforce non-specified clause requirements or statutory language
not clearly written into the contract.


   Recommendation 1: The Director, Defense Procurement, Acquisition Policy and
   Strategic Sourcing, of the Office of the Under Secretary of Defense for Acquisition,
   Technology, and Logistics should modify policy and procedures to ensure that the
   mandatory Federal Acquisition Regulation clause 52.222-50, “Combating
   Trafficking in Persons,” or Alternate I, cannot be removed from solicitations or
   contracts developed in Standard Procurement System / Procurement Desktop
   Defense.




                                                 8
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010

Client Comments and Our Response

The Director, Defense Procurement, Acquisition Policy and Strategic Sourcing, of the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics agreed with
our recommendation. They plan to update the SPS / PD2 clause logic to require the CTIP
clause in all contracts, and prevent deletion of the clause from documents generated from the
software.

We found the comments from the Director, Defense Procurement, Acquisition Policy and
Strategic Sourcing, of the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics to be responsive to the recommendation.




                                                 9
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010




                              This Page Intentionally Left Blank




                                                10
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons           Report No. IE-2010-001
                                                                                        January 15, 2010



Notifying Contracting Officers of Trafficking in Persons
Incidents
Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in Persons,”
requires contractors to notify the Government contracting officer immediately if they
receive information alleging that any employee or subcontractor has engaged in conduct
violating the CTIP clause. 6 If contractors did not self-report, either through oversight or
deliberate omission, contracting officers had no established process to obtain relevant
information regarding actual or alleged acts in violation of the CTIP clause.

Contracting officers have two other potential sources for information concerning
contractor CTIP violations: information made available to the public by criminal
investigative organizations and results from quality assurance inspections.

Contracting personnel we interviewed stated they do not routinely look for or receive the
results of law enforcement investigations into CTIP-related cases. In Korea, the
contracting command had access to the daily report generated by the Provost Marshal
(the “blotter”), but the report did not include investigations by Service investigative or
law enforcement organizations. While dissemination of law enforcement sensitive data is
restricted, information that is releasable (indictments, convictions, etc.) should be shared
with contracting offices.

Most service or construction contracts have a quality assurance plan authorizing quality
assurance specialists or contracting officer representatives to evaluate contractor
performance and compliance with contract terms and conditions. 7 During interviews
with contracting officers and contract specialists, none said CTIP considerations were
part of quality assurance plans for contracts we reviewed.

Working directly with assigned quality assurance personnel, contracting officers could
add a CTIP focus to existing quality assurance plans. Adding applicable language would
encourage contracting officers to verify worker legal status and assure compliance with
the prohibition against using forced labor or other TIP related offenses. Within the
50 States and the District of Columbia, the Davis-Bacon Act of 1931 mandates labor
checks for construction workers performing work on Federal government contracts. 8
Local labor laws and Status of Forces Agreements in the contract location of performance
would affect design and implementation of expanded quality assurance plans overseas.



6
  Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in Persons,” states that
“Contractors and contractor employees shall not— (1) Engage in severe forms of trafficking in persons
during the period of performance of the contract; (2) Procure commercial sex acts during the period of
performance of the contract; or (3) Use forced labor in the performance of the contract.”
7
  Requirements for quality assurance plans are prescribed in Federal Acquisition Regulation Part 46,
“Quality Assurance.”
8
  The Davis-Bacon Act, March 3, 1931, incorporated in 40 U.S.C. §§3141-3144, 3146, and 3147 (1931).


                                                   11
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010

The CTIP clause outlines potential Government remedies if contractor employees are
involved in prohibited activities, ranging from requiring the contractor to remove an
employee from performance on the contract up to suspension or debarment. The CTIP
clause also requires contractors to “take appropriate action, up to and including
termination…” against the offending employee. The contracting officer could accept the
remedy chosen by the contractor as sufficient; requiring no further action.
Should the contractor not take action and the contracting officer remain unaware of
contractor employee violations, no remedy is possible. Also, the lack of knowledge
would impact contracting officers’ reward, contract option, or new contract decisions.
Delayed awareness by contracting officers could result in negative publicity associated
with awarding a contract to, or continuing a relationship with, a company or individual
involved with prohibited activities. Providing timely information concerning CTIP-
related violations to contracting officers will improve contract decisions.

    Recommendation 2: The Director, Law Enforcement Policy and Support, of the
    Office of the Under Secretary of Defense for Personnel and Readiness, should
    develop policy and procedures to share publicly releasable indictment and
    conviction case information involving trafficking in persons with appropriate
    contracting organizations, when such cases involve current or potential
    government contractors.

    Recommendation 3: The Director, Defense Procurement, Acquisition Policy, and
    Strategic Sourcing, of the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics should modify procedures, guidance and
    information for the Defense Federal Acquisition Regulation section 222-1703
    “Combating Trafficking in Persons” clause to include combating trafficking in
    persons considerations as part of every relevant quality assurance plan.


Client Comments and Our Response
The Office of the Under Secretary of Defense for Personnel and Readiness agreed with
recommendation 2, and stated that they would modify appropriate Department of Defense
Instructions to comply with the recommendation once Federal law enforcement
organizations reach a decision regarding specific identification of TIP-related offences.
The Director, Defense Procurement, Acquisition Policy and Strategic Sourcing, of the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
agreed with recommendation 3, and stated they plan to develop policy and guidance
regarding contracting officer representative oversight responsibilities and quality
assurance plans.
We found the comments from the Director, Defense Procurement, Acquisition Policy and
Strategic Sourcing, of the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, as well as those from the Office of the Under Secretary of
Defense for Personnel and Readiness to be responsive to the recommendations.



                                                12
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons         Report No. IE-2010-001
                                                                                      January 15, 2010


Appendix A. Methodology and Acronyms
Methodology
We announced the project on August 6, 2009. We examined statutes, policies,
procedures, and management and oversight reports relevant to DOD policy and practices
regarding efforts to combat trafficking in persons. We contacted selected Defense
criminal investigative organizations to obtain case result data.

We conducted this evaluation from August to November 2009, in accordance with the
standards established by the President’s Council on Integrity and Efficiency (now the
Council of the Inspectors General on Integrity and Efficiency) published in the Quality
Standards for Inspections, January 2005. We conducted site fieldwork in October 2009
at U.S. Forces installations in the Republic of Korea, Japan, and the U.S. Territory of
Guam. The evidence we obtained provides a reasonable basis for our observations and
conclusions in concert with our objectives.

We met with the DOD CTIP program office, located within the office of the Under
Secretary of Defense for Personnel and Readiness. We coordinated with Inspectors
General from the Department of State and U.S. Agency for International Development.
On August 20, 2009 we consulted with the Director of the Office to Monitor and Combat
Trafficking in Persons of the Department of State.

We selected the U.S. Pacific Command area of responsibility as an area satisfying the
“heightened risk” standard required by statute. 9 This decision was based on historical
precedent and command interest of the U.S. Forces Korea, planned DOD force
relocations in the U.S. Territory of Guam, and country “tier placements” in the
Department of State’s “Trafficking in Persons Report,” June 2009. We will observe
locations in other geographic Combatant Commands for subsequent reports.

We visited 13 installations in the U.S. Pacific Command area of responsibility and
reviewed 99 selected contracts to determine if the mandatory Federal Acquisition
Regulation clause 52.222-50 (February 2009) or Alternate I (August 2007) was included.
The team conducted 38 interviews, briefings, and sensing sessions discussing CTIP
issues. We briefed and interviewed military commanders, and performed sensing
sessions with 96 contracting officers and specialists in the Army, Navy, and Air Force
contracting units in order to gauge awareness of CTIP efforts. We also interviewed
representatives from 39 prime contractors, discussing contractor self-reporting and
training mechanisms.

We developed a sample of contracts through a data request to organizations with
acquisition authority in the U.S. Pacific Command area of responsibility. We asked these


9
 Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,”
section 232. See page 2 of this report.


                                                 13
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010

organizations to identify all contracts for construction and services awarded in FY 2009,
with a total contract value (including options) of $5 million or greater. These constraints
provided us with a reasonable data set that was current and included labor-intensive
efforts with significant numbers of short- and medium-term employees susceptible to
forced labor practices. All contracts reviewed were generated using the SPS / PD2
software application.


Use of Computer-Processed Data
The list of contracts for our data sample was provided by the contracting offices from
their database systems. The contracting offices provided the best available source for the
information, but we did not assess the reliability of those systems nor test the sample for
completeness. However, the conclusions in this report were based on personal
observation that was not influenced by selection methodology, and we did not attempt to
estimate or project additional results from our sample. We believe the sample reviewed
was sufficient to support our conclusions.


Acronyms
CTIP                     Combating Trafficking in Persons
SPS / PD2                Standard Procurement System / Procurement Desktop Defense
TIP                      Trafficking in Persons
U.S.C.                   United States Code




                                                14
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010



Appendix B. Client Comments
Office of the Director, Defense Procurement and
Acquisition Policy, of the Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics




                                                15
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010




                                                16
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010



Office of the Under Secretary of Defense for Personnel
and Readiness




                                                17
Evaluation of DOD Contracts Regarding Combating Trafficking in Persons   Report No. IE-2010-001
                                                                                January 15, 2010




                                                18
General Information
Forward questions or comments concerning this assessment report and other activities conducted by the
Inspections and Evaluations Directorate or to suggest ideas for or to request future program assessments
or evaluations to:

                                 Inspections and Evaluations Directorate
                     Office of the Deputy Inspector General for Policy & Oversight
                          Department of Defense Office of Inspector General
                                          400 Army Navy Drive
                                       Arlington, VA 22202-4704
                                                   or
                                    E-mail: crystalfocus@dodig.mil


An overview of the Department of Defense Office of Inspector General mission and organization
structure is available at http://www.dodig.mil/

The Inspections and Evaluations (I&E) Directorate mission and organization and a list of past
evaluations and future topics are available at http://www.dodig.mil/Inspections/IE/Insp&Eval.html
